Audit Report




OIG-12-051
SAFETY AND SOUNDNESS: Failed Bank Review of SCB Bank
May 9, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                                May 9, 2012


             OIG-12-051

             MEMORANDUM FOR THOMAS J. CURRY
                            COMPTROLLER OF THE CURRENCY

             FROM:                 Susan Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of SCB Bank, Shelbyville, Indiana


             This memorandum presents the results of our review of the failure of SCB Bank
             (SCB), located in Shelbyville, Indiana, and the former Office of Thrift
             Supervision’s (OTS) supervision of the institution. OTS regulated SCB until
             July 21, 2011, when the Office of the Comptroller of the Currency (OCC) assumed
             regulatory responsibility for federal savings associations pursuant to P.L. 111-203.

             SCB was an insured federal stock savings association established in 1891. It
             operated one main office and three branches in Shelby County, Indiana. OCC
             closed SCB and appointed the Federal Deposit Insurance Corporation (FDIC) as
             receiver on February 10, 2012. As of December 31, 2011, SCB had approximately
             $182.6 million in total assets. At that time, FDIC estimated the loss to the Deposit
             Insurance Fund to be $33.9 million.

             Because the loss to the Deposit Insurance Fund is less than $150 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
             of the failure of SCB that was limited to (1) ascertaining the grounds identified by
             OCC for appointing the FDIC as receiver and (2) determining whether any unusual
             circumstances exist that might warrant a more in-depth review of the loss. In
             performing our review we (1) examined documentation related to the appointment
             of FDIC as receiver, (2) reviewed OTS reports of examination for the 5-year period
             before the bank’s failure, and (3) interviewed OCC personnel.

             We performed our fieldwork during February and March 2012. We conducted this
             performance audit in accordance with generally accepted government auditing
             standards. Those standards require that we plan and perform the audit to obtain
             sufficient, appropriate evidence to provide a reasonable basis for our findings and
             conclusions based on our audit objectives. We believe that the evidence obtained
             provides a reasonable basis for our findings and conclusions based on our audit
             objectives.
OIG-12-051
Page 2

Causes of SCB’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) SCB had
experienced a substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank incurred or was likely to incur losses that would deplete all or
substantially all of its capital and there was no reasonable prospect for it to become
adequately capitalized without federal assistance, (3) the bank’s unsafe or unsound
practices or conditions were likely to seriously prejudice the interests of the Deposit
Insurance Fund, and (4) the bank was critically undercapitalized.

The primary cause of SCB’s failure was its aggressive growth strategy that focused
on higher risk (1) loans including commercial real estate loans, commercial loans,
home equity lines of credit; and (2) investments in non-agency collateralized
mortgage obligation (CMO) securities. 1 SCB’s lack of sufficient capital, inadequate
credit risk management, and inadequate credit administration practices also
contributed to its failure. The bank’s higher risk loans and investment in non-
agency CMOs were primarily funded by higher cost wholesale funds, including
volatile brokered deposits and advances from the Federal Home Loan Bank.
Management and the board also failed to adjust quickly or effectively to changing
economic conditions and as a result, SCB’s asset quality deteriorated, classified
asset levels increased, and capital and earning declined, ultimately leading to SCB’s
failure.

Conclusion
Based on our review of the causes of SCB’s failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no
circumstances surrounding the bank’s failure that would necessitate an in-depth
review. In making this determination, we took into consideration that the federal
savings association functions of OTS, SCB’s regulator until July 2011, transferred
to OCC. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of the failure of SCB and that it had no concerns with our determination
that an in-depth review of the bank’s failure is not warranted. The response is
provided as Attachment 1. A list of the recipients of this memorandum is provided
as Attachment 2.

1
 A non-agency CMO is a type of financial debt vehicle that is not sponsored by a Government-
Sponsored Enterprise such as Fannie Mae. Legally, a CMO is a special purpose entity that is wholly
separate from the institution(s) that create it. The entity is the legal owner of a set of mortgages,
called a pool. Investors in a CMO buy bonds issued by the CMO, and they receive payments
according to a defined set of rules.
OIG-12-051
Page 3


We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Amni
Samson, Audit Manager, at (202) 927-0264.

Attachments
         OIG-12-051

       Attachment 1
Management Response
                                                       OIG-12-051

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
